HHS/OIG, Audit - "Review of Medicare Payments to
Connecticut VNA, Inc., for Home Health Services Preceded by a Hospital Discharge," (A-01-07-00501)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments to
Connecticut VNA, Inc., for Home Health Services Preceded by a Hospital Discharge," (A-01-07-00501)
September 10, 2007
Complete Text of Report is available in PDF format (284 kb).  Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Connecticut VNA, Inc., (the agency)
complied with Medicare requirements in billing for fiscal year 2004 and 2005
services for beneficiaries who had been discharged from an acute care hospital
in the preceding 14 days.  The agency improperly coded 35 claims as if the
beneficiaries had not been discharged from an acute care hospital within the
14-day period preceding the home health admission.  The Centers for Medicare &
Medicaid Servicess prepayment edit corrected 27 of the 35 claims.  Overpayments
for the eight claims not identified by the edit totaled $3,683.  We
recommended that the agency (1) ensure that its adjustments to reimburse
Medicare for the $3,683 were processed by the regional home health intermediary
and (2) further educate its staff regarding the importance of identifying all
facilities that had discharged the beneficiary within 14 days of the home health
episode and determining which of these facilities were acute care (including
long-term care) hospitals.